GR-80-98-019
U.S. DEPARTMENT OF JUSTICE

 
Audit Report
 
Office of Community Oriented Policing Services
Victoria County Sheriff's Department 
Victoria, Texas
GR-80-98-019
June 5, 1998
 
 EXECUTIVE SUMMARY
 
The Office of the Inspector General, Audit Division, has completed an audit of the
grants awarded by the U.S. Department of Justice (DOJ), Office of Community Oriented
Policing Services (COPS), to the County of Victoria, Texas, Sheriff's Department. The
County of Victoria received a grant of $72,639 to hire one officer under the Funding
Accelerated for Smaller Towns (FAST) program and $31,396 to redeploy two veteran officers
into community oriented policing under the Making Officer Redeployment Effective (MORE)
program. The purpose of the additional officers was to enhance community policing efforts.
The Sheriff's Department did not have a redeployment plan and did not document the
redeployment of police officers as required by the MORE grant. They also did not fill the
two MORE grant technician positions that became vacant, and they have no plans to hire
anyone for those positions. Additionally, some requests for reimbursement for the FAST
grant were in excess of approved costs.
We found the following weakness with regard to meeting grant conditions:


- Redeployment was not documented as required by the MORE grant, and they did not have
    a plan to document the redeployment. Therefore, we are questioning $13,007 in funds
    received by the Sheriff's Department.
- The Sheriff's Department requested reimbursement on 81 percent of the allowable FAST
    grant costs. The 81 percent reimbursement rate resulted in unallowable reimbursements
    totaling $4,897. The Federal share is limited to 75 percent of allowable costs. We
    question these unallowable costs.
- MORE grant funds of $18,389 were not utilized when the grant expired on November 30,
    1997, because the Sheriff's Department decided not to fill the civilian technician
    vacancies authorized by the grant. Grantees are expected to make a good faith effort to
    continue the redeployment of officers into community policing, and they are required to
    get prior COPS approval before making a major program change. These funds should be
    deobligated to funds to better use.
- The Victoria County Sheriff's Department did not utilize $7,309 of the FAST grant
    before it expired on February 28, 1998. They have decided not to request an extension for
    the grant; therefore, those funds should be deobligated to funds to better use.
- Our review of the Financial Status Reports indicated that 4 of the 12 FAST grant
    reports and 3 of the 6 MORE grant reports were submitted late. 


 
#####